audit report



Return to the USDOJ/OIG Home Page



Use of Equitable Sharing Revenues by the Rhode Island State Police Department
GR-70-99-010
August 25, 1999
Office of the Inspector General

EXECUTIVE SUMMARY
The United States Department of Justice, Office of the Inspector General has completed an audit of the use of equitable sharing revenues by the Rhode Island State Police Department (Rhode Island PD).  Equitable sharing revenues represent a share of the proceeds from the forfeiture of assets seized in the course of certain criminal investigations.

	Generally, we determined that the Rhode Island PD complied with equitable sharing guidelines.  However, we found that:

on its FY 1998 Federal Annual Certification Report, the Rhode Island PD overstated equitable sharing interest received by $6,249.

The audit results are discussed in the Findings and Recommendations section of this report.  Our audit Objectives, Scope, and Methodology appear in Appendix I.